sm
IN THE
SUPREME COURT OF THE
UNITED STATES

JOSEPH REINWAND,
Petitioner-Appellant,

3

v.
H

li

■I

” FILED ^
MAR 1 7 2021

SUSAN NOVAK
Respondent-Appellee.

,1

OFFICE OF THE CLERK
SUPREME COURT. U.S.

"on petition for writ of certiorari to the United States
Court Of Appeals for the Seventh Circuit"

PETITION FOR
WRIT OF CERTIORARI

Dated: 03-15-2021

Joseph Reinwand
Stanley Correctional
100 Correctiona Drive
Stanley, WI. 54768

Received
MAR 2 4 2021
Llu^cS^x

QUESTION PRESENTED
1. Whether the Seventh Circuit Court of Appeals Failed to apply the Law on
Deceased out-of-court testimonial Statements by a Non-testifying Witness.
Thereby Denying Reinwand's Sixth and Fourteenth Amendments to the United
States Constitution and This Court's Decision's on Confrontation Rights
and a Fair Trial.

2. Whether the Seventh Circuit Court of Appeals Failed to Grant a Certificate
of Appealability by Failing to Apply it's own Identical Case on point where
the Court Granted in that Case a Certificate of Appealability and Eventually
Reversed that Case Granting the Writ of Habeas, see Jensen v. Clements,
800 F.3d 893 (7th Cir. 2015) (and 2019).

-1-

TABLE OF CONTENTS
page
1

Questions Presented for Review
Table of Contents

2

Index of Appendices

3

Table of Authority

4

Opinions

5

Jurisdiction Statement

5

Constitutional Provisions

5

Reason for Granting the Petition

6

Conclusion

13

attached

Proof of Service

-2-

INDEX OF APPENDICES
Appendix A, United States Court of Appeals for the Seventh Circuit, Denial
of a Petition for Rehearing. Dated January 7, 2021.
Appendix B,

United .States Court of Appeals for the Seventh Circuit, Denial
of a Certificate of Appealability.

Appendix C, United States District Court for the Western District of Wisconsin
Dismissing Petitioner's Writ of Habeas Corpus under 28 U.S.C.
§ 2254 Case.

-3-

r-

TABLE, OF AUTHORITY
Chambers v.,Mississippi,. 410 U.S. 284 (1973)
Crawford v. Washington, 541 U.S. 36 (2004)
Cruz v. New York, 481 U.S. 186 (1987)
Davis v. Alaska, 415 U.S. 308 (1974)
Delaware v. Fensterer, 474 U^S. 15 (1985)
Douglas v. Alabama, 380 U.S. 415 (1965)
Giles v. California, 554 U.S. 353 (2008)
Jensen v. Clements, 800 F.3d 893 (2019)
Ohio v. Clark, 135 S.CT. 2173 (2015)
Olden v. Kentucky., 488 U.S. 227 (1988)
People v. Quintanilla, 2020 Cal.App. 177
Pointer v. Texas, 380 U.S. 400 (1965)
Richardson v. Griffin, 2017 U.S. App.14603
Smith v. Illinois, 390 U.S. 129 (1968)
State v. Van Dyke, 2015 WI App 30
United States v. Sweeney, 70 MJ 296 (2011)

-4-

CITATIONS OF OPINIONS AND ORDER
The opinion and order of the United States Court of Appeals, Seventh
Circuit denial of a Habeas Corpus 28 U.S.C. § 2254 Petition for Rehearing,
Opinion and Order of the United States Court of Appeals, Seventh Circuit denial
of a Habeas Corpus 28 U.S.C. § 2254 Petition, Opinion and.Order of the United
States District Court denial of Habeas Corpus 28 U.S.C. § 2254 Petition.
JURISDICTION STATEMENT
The Jurisdiction for this Court over the Petition is invoked under 28
U.S.C. § 1254 and the United States Constitution Article III § 2. The Petition
is timely filed pursuant to 28 U.S.C. § 2101(c), allowing 90 days to File
and the Supreme Court Rule 13 that allows the time to file from the date of
the Denial of the Rehearing Motion.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Sixth Amendment to the United States Constitution in relevant part.
The Fourteenth Amendment of the United States Constitution in relevant
part Due Process and Equal Protection.
Statutory Provisions, 28 U.S.C. § 2101, 28 U.S.C. § 2253, 28 U.S.C. § 2254.

-5-

REASON .FOR GRANTING PETITION
The Seventh Circuit Court of Appeals departed from the accepted and usual
course of 28 U.S.C. § 2254 Habeas Corpus Proceeding's that are necessary for
an adequate Appeal Process. The Seventh Circuit went against this Court's
and there own Controlling Cases on DECEASED OUT-OF-COURT Statements by a
nontestifying Witness and allowed the State to admit and use that Deceased
Person's OUT-OF-COURT Statements to get an unjust Conviction of the Defendant.
The Seventh Circuit when faced with the same Confrontation Violation
in another case stood firm and protected that defendant's rights, but when
it comes to Reinwand in this current Case, the seventh Circuit turned a deaf
ear to Reinwand's Confrontation Rights, see (Jensen v. Clements, 800 F.3d
893 (2015).
The other Circuit's such as the California Court of Appeals reversed
a Murder Conviction because 'the State Superior Court erred by allowing the
Deceased OUT-OF-COURT statements into evidence, see People v. Quintanilla,
2020 Cal. App. Lexis 177 (Cal. Court of Appeals 2020).
It is for these reasons and the following Reinwand should be Granted
the Writ of Certiorari by this Honorable Court. It is hoped and believed that
this Court will not turn a deaf ear to Reinwand's Confrontation Rights like
the Seventh Circuit did.
This is a Constitutional Error of the First Magnitude.

i

-6-

CONSTITUTIONAL VIOLATIONS
The Sixth Amendment to the United States Constitution and made Applicable
to the States via the Fourteenth Amendment provides in all Criminal Prosecutions
the accused shall enjoy the Right...to be confronted with the Witnesses against
him. Reinwand's Confrontation Right was Violated and he was denied a Fair
Trial because this Right was Violated.
The Sixth Amendment prohibits the introduction of testimonial statements
by a nontestifying witness, unless the witness is unavailable to testify,
and the defendant has had a prior opportunity for cross-examination, see Ohio
v. Clark, 135 S.CT. 2173 (6-18-2015). The Sixth Amendment secures to the
accused the Right to be Confronted with the witness against him. This Right
applies equally in Federal and State prosecutions, see Pointer v. Texas, 380
U.S. 400, 403 (1965), and means more than being allowed to confront the witness
physically, Davis v. Alaska, 415 U.S. 308, 315 (1974).
This Court has repeatedly held that the "main and essential purpose of
Confrontation is to secure for the opponent the opportunity of Cross-Examination",
see Delaware v. Van Arsdall, 475 U.S. 673, 678 (1986); Chambers v. Mississippi,
410 U.S. 284, 295 (1973) ("referring to the Rights to Confront and Cross-Examine
witnesses as long..recognized as essential Due Process"). Smith v. Illinois,
390 U.S. 129, 131 (1968) ("referring to denial of Cross-Examination as Constitutional
Error of the First Magnitude"), quoting Brookhart v. Janis, 384 U.S. 1, 3 (1966);
Douglas v. Alabama, 380 U.S. 415, 418 (1965) ("Summarizing Supreme Court precedent
as holding "that a primary interest secured by the Sixth Amendment is the
Right of Cross-Examination"). Cross Examination is an essential and Fundamental
Requirement for the kind of Fair Trial which the Country's Constitutional
Goal, Pointer, 380 U.S. at 405. It is the principal means by which the believeability of a witness and the truth of his Testimony are Tested.

-7-

It is Clearly established in a Constitutional Right that the Sixth Amendment
limits the Trial Court's ordinary discretion to limit Cross-Examination. This
Court has held that ordinary rules of evidence must give way when they prevent
a defendant from presenting evidence central to the defense, including through
Cross-Examination. Olden v. kentucky, 488 U.S. 227, 232 (1988); Van Arsdall
475 U.S. at 679-80; Davis, 415 U.S. at 319; and Chambers, 410 U.S. 295-98,
(finding that States could not apply common-law evidentiary rule to limit
Cross-Examination of key Witness); id. at 302 (Finding that hearsay rule cannot
be applied mechanistically when it undermines Fundamental elements of the Defense).
The Confrontation Clause guarantees an opportunity for effective CrossExamination, not Cross-Examination that is effective in whatever way the State
deems okay to convict, Delaware v. Fensterer, 474 U.S. 15, 20 (1985).
The California Court of Appeals held that Deceased out-of-Court Statement
under the Hearsay Exception is an Error, and the Trial Court's Error was not
Harmless. People v. Quintanilla, 2020 Cal. App. Lexis 177; also see Crawford
v. Washington, 541 U.S. 36, 53-54 (2004).
The principal evil at which the Confrontation Clause was directed was
the Civil-Law mode of Criminal Procedure, and particularily its use of exparta
Examinations as evidence against the accused, Crawford, 541 U.S. at 50.
A Statement is Testimonal if made under circumstances which would lead
an objective witness reasonably to believe that the Statement would be available
for use at a later trial, see United States v. Sweeney, 70 MJ 296, 301 (C.A.A.
F. 2011) quoting Crawford, 541 U.S. at 51. In making this determination the
Court has asked whether it would "be reasonably foreseeable to an objective
person that the purpose of any individual statement...is Evidentiary.

-8-

In this Case Mr. Reinwand’s wife died of a self inflicted gunshot wound
to the head in 1984. At that time her death was ruled a Suicide by the
pathologist and the local sheriff's department. Thirty (30) years later an
investigator had the cause of death changed, not because of new physical
evidence but because of a hearsay jail house informant who was promised a
deal on his crime if he would testify against Reinwand. This lead authorities
to say the death should have been considered a homicide.
The State was allowed to admit a hearsay jail house snitch's testimony
at trial that Reinwand Confessed to him on his wife's death. There was unfair
prejudicial Other Acts evidence admitted as Testimony by five witnesses in
this Case, all saying the defendant committed that offense then he committed
this current offense as well. No Proof, No Evidence, plain and simple propensity.
A out-of-court Statement by a Deceased person was used as Testimony against
Reinwand in this Case from a Previous Case.

quoting,

(a) Statements by a DECEASED person from different Case allowed in this case.
Reinwand allegedly threatened Meister and allegedly told Meister that
he could kill Meister and get away with it just as he had done with
his wife many years earlier.
(b) Statement by Meister that.. .Reinwand had told Meister that he had
killed in the past and gotten away with it and could do so again with
Meister.
(c) Statement by Meister that Meister was scared of...Reinwand and told
witnesses that he expected to wind up dead and that Reinwand would stage
it to look like a suicide.
(d) Statements by Meister that Meister said if he wound up dead, it
would not be a suicide,
(e) Statements by Meister that Reinwand was upset that Meister was

-9-

checking into -whether Pamela’s death in May of 1984 was truly a Suicide
or not. All of these Statements were from a different Case and allowed
in this Case by hearsay witnesses, thereby violating Confrontation Rights.
■ Reinwand's Counsel Objected to the admission .of this Testimony preserving
it for this Appeal. The Statements are Inadmissible under the Confrontation
Clause of the Sixth Amendment, which Bars admission of DECEASED OUT-OF-COURT
Testimonal Statement's unless the declarant is unavailable and the defendant
had a prior opportunity to examine the declarant with respect to the Statement's
see Crawford v. Washington, 541 U.S. 36, 68 (2004).
The Sixth Amendment to the United States Constitution; made applicable
to the States via the Fourteenth Amendment, Pointer v. Texas, 380 U.S. 400,
403 (1965) and it provides that "in all Criminal Prosecutions, the accused
shall enjoy the Right...to be Confronted with Witnesses against him".
In Crawford v. Washington, 541 U.S. 36 (2004) Reviewing the Clauses Historical
underpinning, this Court held that it guarantees a defendant's Right to Confront
those "who bear witness against him". A witnesses Testimony against a defendant
is thus Inadmissible unless the witness appears at trial, or if the witness
is unavailable, the defendant has had a prior opportunity for Cross-Examination,
Crawford @ 51-54, also see State Constitution Article I § 6, State Civil Rights
Law, Bill of Rights Article 2 § 12.
In Crawford this Court held that "Testimony" Statements not previously
subjected to Cross-Examination are Inadmissible against a Criminal Defendant.
Also this Court held that "a witnesses Testimony against a defendant is Inadmiss­
ible unless the witness appears at Trial or, if the witness is unavailable,
the defendant had a prior opportunity for Cross-Examination. Certifications
are affidavits, which fall within the core class of Testimonal Statements
, covered by the Clause.

-10-

In Short, the Lack of a Live Witness for the defense to Confront,
"Elimanted Reinwand’s Opportunity to Contest a Decisive piece of Evidence
against Him”. This is Exactly the Evil the Confrontation Clause was designed
to prevent. A Constitutional Violation of the First Magnitude.
In the wake of this Court’s decision in Crawford the Confrontation Clause
returned to it's traditional mode of operation, that is

to. a procedural provision

that forbids the Government from introducing ’’testimonal” hearsay in place
of live Testimony at Trial. This Court noted that "Testimony" is a solemn
declaration or affirmation made for the purpose of establishing some fact.
A Witness is considered to be a Witness against a defendant for purposes
of the Confrontation Clause...if his testimony-is part of the body of evidence
that the Jury may consider in assessing guilt, see Cruz v. New York, 481 U.S.
186, 198 (1987).
In Jensen v. Clements, 800 F.3d 893 (7th Cir.2015) and 2019 the Court
decided in favor of Jensen,when the Wisconsin Trial Court, just like this
Case, Authorized the admission of Testimonal Hearsay Evidence under a Foreitur
by wrongdoing analysis. This Court in Giles v. California, 554 U.S. 353, 376
(2008),decided the disputed Testimonal Evidence was Erroreously admitted,
the same as the Jensen Case Twice. More important in Giles and Jensen Cases
this Court decided Statements made by Witnesses that the victim told them
prior to her death was indeed "Testimonal".Jensen’s Case was Ordered a New
Trial, finding the testimonal Hearsay Statement's admitted at his Wisconsin
Trial deprived Jensen of his Right to a Fair Trial. Two Cases on Point that
support that Reinwand should be given a New Trial and the Seventh Circuit
failed and denied Reinwand his Constitutional Rights.

-11-

In this Case the Deceased Witness was Unavailable Five Times, and the
Five Inadmissible Statements denied Reinwand his Right' to Cross-Examination
and there was no Prior Opportunity to Cross-Examine the Witness Statements.
Statements are Testimonal if "made under circumstances which would lead

*

an objective witness reasonably to believe that the Statements would be available
for use at a later Trial, Crawford, 541 U.S. at 51, also see State v. Van
Dyke, 2015 WI. App 30 at P17 footnotes, quoting, "regardless we conclude a
- Statement is Testimonal if it formalized material similar to an affidavit.
Everyone of the Statements of the unavailable Witness were Formalized.
The Statements were solemn declarations and affirmations made for the
purpose of establishing or proving some fact in the States Case. The OUT-OFCOURT Statements were part of the body of Evidence and that makes this
Witness, a Witness against Reinwand, Cruz v. New York, 481 U.S. 186 (1987).
In the Jensen Case the Seventh Circuit cited Crawford by stating "the
United States Supreme Court addressed the reach of the Confrontation Clause.
It applies to Witnesses against the Accused, in other words, those who bear
testimony, see Richardson v. Griffin, 2017 Y.S. App Lexis 14603 at *9.
Abridging the Constitutional Rights of Reinwand is not the State's .
arsenal, see Giles v. California, 554 U.S. 353, 376 (2009). Therefore applying
Crawford's decision to Reinwand's Case there is not doubt what so ever the
Stateemtns that the Pastor and Four Other Witnesses made were Testimonal and
Violated Reinwand's Right to Confront that Witness. The Witnesses were responding
to the State's question's, and the Statement's went to the core fact of the
State's Case thereby denying Reinwand a Fair Trial. Is it fair that Reinwand
is denied his Confrontation Rights and other's get to enjoy that Right.

-12-

CONCLUSION
It is for these Constitutional Reasons as Stated in the previous pages
that Reinwand was Denied his Constitutional Right to Confront the Deceased
Witness. There is no Evidence of Reinwand Committing the alleged crime except
for the Inadmissible Testimony about what the Witness would of said to these
people who testified. The two Cases that are on point and both of them were
reversed for a New Trial wherein both cases the State used Testimony from
the Grave of a Deceased Witness. The Petitioner Reinwand prays that this
Court Grant the Writ and send the Case back to the Seventh Circuit for further
proceedings.

Dated: 03-15-2021

Sincerely,
fO

Joseph^Reinwand
Stanley Correctional
100 Corrections Drive
Stanley, WI. 54768

-13-

